=
\

C@OCKLE

2311 Douglas Street ief E-Mail Address:
Omaha, Nebraska 68102-1214. L ega 1 B ne 9 S contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com

Fax: (402) 342-4850 No. 19-1304

INDIAN RIVER COUNTY, FLORIDA; INDIAN RIVER COUNTY
EMERGENCY SERVICES DISTRICT,
Petitioners,

v.
UNITED STATES DEPARTMENT OF TRANSPORTATION; ELAINE
L. CHAO, IN HER OFFICIAL CAPACITY AS SECRETARY OF
TRANSPORTATION; DEREK KAN, IN HIS OFFICIAL CAPACITY AS
UNDER SECRETARY OF TRANSPORTATION FOR POLICY; FEDERAL
RAILROAD ADMINISTRATION; PAUL NISSENBAUM, IN HIS OFFICIAL
CAPACITY AS ASSOCIATE ADMINISTRATOR OF THE FEDERAL
RAILROAD ADMINISTRATION; AAF HOLDINGS LLC,
Respondents.

AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 19th day of June, 2020, send out
from Omaha, NE 3 package(s) containing 3 copies of the BRIEF OF INDIAN RIVER NEIGHBORHOOD ASSOCIATION
AS AMICUS CURIAE IN SUPPORT OF PETITIONERS in the above entitled case. All parties required to be served have
been served by third-party commercial carrier for delivery within 3 calendar days. Packages were plainly addressed to the
following:

SEE ATTACHED

To be filed for: :

TRACY S. CARLIN
Counsel.of Record

STEVEN L. BRANNOCK

BRANNOCK HUMPHRIES & BERMAN

1111 W. Cass Street

Suite 200

Tampa, Florida 33606

(813) 223-4300

tcarlin@bhappeals.com

sbrannock@bhappeals.com

Counsel for Amicus Curiae
Indian River Neighborhood
Association

Subscribed and sworn to before me this 19th day of June, 2020.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

    

eos Oudeawh, Chale

Affiant

 

A GENERAL BOTARY-State of Babraska
RENEE J. GOSS

My Comm. Exp. September ยง, 2023 |

 

Notary Public
SERVICE LIST

Counsel for Petitioners
Jeffrey A. Lamken

Counsel of Record
James A. Barta
MoloLamken, LLP
600 New Hampshire Ave., N.W., Suite 500
Washington, D.C. 20037
(202) 556-2000
jlamken@mololamken.com
jbarta@mololamken.com

Counsel for Respondent AAF Holdings LLC
Shannen Wayne Coffin
Counsel of Record
David H. Coburn
Steptoe & Johnson LLP
1330 Connecticut Avenue NW
Washington, DC 20036
(202) 429-6255
scoffin@steptoe.com
dcoburn@steptoe.com

Counsel for Federal Respondents

Noel J. Francisco

Solicitor General of the United States
Counsel of Record

U.S. Department of Justice

950 Pennsylvania Ave., N.W., Room 5616

Washington, D.C. 30530

(202) 514-2217

supremectbriefs@usdoj.com
